So
I
2311 Douglas Street COCKL E

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B rie fs contact@cocklelegalbriefs.com
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-409

CITY OF CLEVELAND, KAREN LAMENDOLA,
ADMINISTRATOR FOR ESTATE OF FRANK
STOIKER, AND J. REID YODER, ADMINISTRATOR
FOR ESTATES OF EUGENE TERPAY,

JAMES T. FARMER, AND JOHN STAIMPEL,
Petitioners,
vs.

RICKY JACKSON, KWAME AJAMU, FKA RONNIE
BRIDGEMAN, AND WILEY EDWARD BRIDGEMAN,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE INTERNATIONAL MUNICIPAL LAWYERS ASSOCIATION IN SUPPORT OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 3022 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
state of Nebraska LE Se Qudraw- bh.
My Commission Expires Nov 24, 2020 G

Notary Public Affiant

 

38848
